Ti

siege ie CO KLE

: E-Mail Address:
Omaha, Nebraska 68102-1214 Legal B gre fs contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850
No. 19-342
MARK F. McCAFFREY,
Petitioner,
Vv.
MICHAEL L. CHAPMAN, et al.,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the REPLY BRIEF in the above
entitled case complies with the typeface requirement of Supreme Court Rule 33.1(b), being
prepared in New Century Schoolbook 12 point for the text and 10 point for the footnotes, and this

brief contains 2994 words, excluding the parts that are exempted by Supreme Court Rule 33.1(d),
as needed.

Subscribed and sworn to before me this 28th day of October, 2019.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE
General Notary

:
pascal box C6 Lhe Qudraw- A Chih
My Commission Expires Nov 24, 2020 *

Notary Public Affiant

 

38888
